PERFORMANCE AUDIT
OF THE


Georgia Department of
Community Affairs
Consolidated Technical
Assistance Grant
Grant: GA-7769-C31

OIG Report Number: 13-13

GRANT PERIOD JULY 1, 2011 – JUNE 30, 2012
Appalachian Regional Commission
1666 Connecticut Avenue, N.W.
Suite 700
Washington, DC 20009-1068

Mr. Hubert N. Sparks
Inspector General

Transmitted herewith is a report of Watkins Meegan LLC, a Performance Audit of the Georgia Department of
Community Affairs Consolidated Technical Assistance Grant GA-7769-C31. The report is in response to Contract
No. BPA 11-01-B.




Tysons Corner, Virginia
March 2, 2013
               Georgia Department of Community Affairs Consolidated Technical Assistance Grant

                                                  GA-7769-C31




Background

The Appalachian Regional Commission (ARC) is a regional economic development agency that represents a
partnership of federal, state, and local government. Established by an act of Congress in 1965, ARC is composed
of the governors of the 13 Appalachian states and a federal co-chair, who is appointed by the President. Local
participation is provided through multi-county local development districts (LDD’s). Each year, ARC provides
funding for several hundred projects in the Appalachian Region, in areas such as business development,
education and job training, telecommunications, infrastructure, community development, housing, and
transportation. These projects create thousands of new jobs, improve local water and sewer systems, increase
school readiness, expand access to health care, assist local communities with strategic planning, and provide
technical and managerial assistance to emerging businesses.

The Georgia Department of Community Affairs administers a variety of state and federally funded programs
designed to support economic development, increase job opportunities, and improve communities throughout the
state of Georgia. Among those programs are the grants awarded by ARC specifically focused on fostering growth
and economic development within the Appalachian counties in Georgia.

ARC approved the Georgia Consolidated Technical Assistance Grant, project number GA-7769-C31, to the
Georgia Department of Community Affairs (GA DCA, or the Grantee) in the amount of $233,300 for the period
from July 1, 2011 to June 30, 2012. The Grant requires an equal amount of State funding. The Grant supports
review and administration of ARC project applications and grants and community and economic development
programs initiated by the State. Funding covers personnel costs for four staff plus travel, contractual, rent and
other indirect type expenses. The Grant designated $30,000 for small sub grants (generally less than $5,000) to
support “special opportunities” such as conferences, leadership training and planning activities, where the needs
are too small and/or are without sufficient lead time to pursue during the regular grant cycle.

Objective

Watkins Meegan LLC has been engaged to conduct a performance audit on the Georgia Department of
Community Affairs Consolidated Technical Assistance Grant for the period from July 1, 2011 to June 30, 2012.
The purpose of our performance audit was to determine that:

       Funds expended and claimed for reimbursement from ARC were valid program expenses and in
        accordance with the ARC Grant requirements;

       Internal controls were in place to ensure compliance with the Grant requirements; and

       Goals and objectives of the Grant had been achieved.

Executive Summary

Grant funds were used to fund the payroll and benefits of four staff who assisted with the administration and
support of the Georgia DCA ARC programs, and to pay related administrative program expenses. Staffing
included a Project Director, two Regional Specialists and a Field Services Representative. Non-personnel costs
included travel and indirect expenses. The staff supported the program in various areas including preparing and
reviewing grant applications, program oversight including field visits to ARC projects, attending regional meetings,
and working with other LDDs and community agencies to improve visibility and support development in the
region.



                                                         2
              Georgia Department of Community Affairs Consolidated Technical Assistance Grant

                                                 GA-7769-C31




In general, the performance objectives of the Grant were met. Required interim and final reports were not always
submitted timely. Grant expenditures were nearly $109,000 (ARC and non-federal) less than the total budget
amount of $466,600. ARC de-obligated approximately $54,000 in February 2013. Prior year grants also resulted
in de-obligations. No small sub grants were funded during the Grant period, although one was approved by ARC.

Scope

We performed a performance audit of the Georgia Department of Community Affairs Consolidated Technical
Assistance Grant GA-7769-C31 at the GA DCA office from January 23, 2013 through January 25, 2013, as
described under this section and under the audit methodology section. Our review was based on the terms of the
Grant agreement and on the application of procedures compiled in the modified ARC “Sample Audit Program.”

We conducted this performance audit in accordance with Generally Accepted Government Auditing Standards
(GAGAS). Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit objectives.

Audit Methodology

Our procedures were based on the “Sample Audit Program” prepared by ARC OIG and included suggested
procedures over the Grantee’s accounting and internal control systems affecting the Grant. We met with the
Project Director to discuss the GA DCA overall structure and processes around Grant administration and
monitoring. We also discussed and reviewed other financial and operational elements related to the conduct of
the project.

Our review of background material included ARC’s Grant agreement and related documentation, ARC Grant
approval, the Grant application and the State of Georgia Comprehensive Annual Financial Report for the Fiscal
Year Ended June 30, 2012.

Our procedures included a review of controls in place for recording, accumulating, and reporting costs under the
Grant. We discussed with Management and certain staff whether the goals and objectives of the project funded
with ARC monies had been met. This included meeting with the Project Director and two Regional Specialists to
understand how their daily activities and responsibilities supported the administration of Georgia’s ARC program.
We also gained an understanding of the responsibilities of other staff funded by the Grant.

Finally, we examined a sample of timesheets, payroll detail and related records for the staff whose employment
was supported by the ARC funds. We also inquired of key staff and reviewed supporting documentation (invoices,
vouchers, etc.) regarding the supplies, equipment, travel and indirect expenses that were paid for by ARC funds
to determine whether they were allowable costs, i.e., the expenses supported ARC staff and project coordination.
We evaluated payments and other activities for compliance with applicable Grant requirements and federal
regulations.




                                                       3
               Georgia Department of Community Affairs Consolidated Technical Assistance Grant

                                                   GA-7769-C31




Results

Compliance with Grant Provisions

The ARC (federal) share and matching (non-federal) share of actual expenditures incurred, reported, and
supported were $178,911 and $178,911, respectively, during the period under review. Total actual expenditures
were $357,822, approximately $109,000 less than the total ARC and matching budget of $466,600. We examined
supporting documentation for costs incurred, and determined that in general the funds had been expended in
compliance with the Grant agreement. It appears the program objectives were generally achieved.

We had the following observations regarding the Grant budget and measuring of program results.

Reporting Requirements Observations

Grant terms required submission of interim (six-month) and final financial and progress reports. The interim report
and payment request for the period July 1 through December 31, 2011 were not submitted until July 2012. The
interim report and payment request for the period January 1 through June 30, 2012 were submitted timely in July
2012. Numerous communications between ARC and the Grantee occurred between July 2012 and January 2013
to obtain reports in the format required by ARC. A final report and payment request covering the full grant period
was submitted in January 2013. Payment was made and the file closed by ARC in February 2013. Timely
submission of reports facilitates ARC review and approval.

Procedures should be in place to ensure reports are prepared, reviewed and submitted based on Grant
requirements. Grantee personnel responsible for preparing Grant reports should obtain additional clarification as
needed from ARC and document reporting requirements and formats for future submissions.

Program Budget

As noted above, Grant expenditures were significantly less than anticipated in the original budget presented to
ARC. The Grant budget included $30,000 for small sub grant projects but no small sub grants were awarded
although one was submitted and approved. Personnel costs charged to the Grant were approximately $50,000
less than amounts budgeted. The Project Director noted that GA DCA had difficulty identifying opportunities or
applicants for small sub grants during the Grant period.

When ARC funds are allocated but not used by a Grantee, the monies are not available for use on other projects
supporting economic development in the Appalachian Region. Future funding requests should be reduced if
personnel resources are not available or if the level of effort involved in identifying and managing small sub grants
outweighs the benefits.

Performance Metrics

Grant reporting should include actual outcomes and measure results against program goals defined in the
application. Communication from ARC to ARC grantees on February 15, 2012 noted the requirement to confirm or
revise expected outputs and outcomes in the Technical Assistance close-out reports. The Grant application did
not provide clear and measurable performance goals for assessing program performance. The Final report noted
program accomplishments but did not assess these results against any predefined or quantified measures.

Defined outputs and outcomes allow the Grantee and ARC to assess whether the project is progressing as
expected (interim reporting) or if the project has achieved its goals and objectives.

                                                         4
                www.WatkinsMeegan.com

BETHESDA   ❘   ANNAPOLIS   ❘   TYSONS CORNER   ❘   HERNDON
